         Audit Report




   OIG-06-030

   TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has
   Taken Steps to Better Analyze Bank Secrecy Act Data But
   Challenges Remain

   May 18, 2006




Office of
Inspector General
Department of the Treasury
Contents

Audit Report ................................................................................................ 3

   Results in Brief ............................................................................................ 4

   Background ................................................................................................. 6

   Findings and Recommendations .................................................................... 10

       FinCEN Is Performing More Complex Analysis in Line with PATRIOT Act
       Requirements but Needs to Better Plan and Measure the Effort .................... 10
       Recommendations .................................................................................. 20

       The FinCEN Database Cannot Be Relied On for Accurate and Complete
       Data .................................................................................................... 21
       Recommendations .................................................................................. 30

       Improved Internal Controls Are Needed to Protect BSA and Other Data......... 32
       Recommendations .................................................................................. 35


Appendices

   Appendix 1:          Objectives, Scope, and Methodology ...................................... 38
   Appendix 2           FinCEN’ sAnal yt i
                                         csDi  vi sion.................................................. 40
   Appendix 3           Descriptions of Several Software Packages Used by
                        FinCEN Analysts .................................................................. 43
   Appendix 4:          Management Response ......................................................... 46
   Appendix 5:          Major Contributors to This Report ........................................... 51
   Appendix 6:          Report Distribution ............................................................... 52

Abbreviations

   ASIS                 Analytical System for Investigative Support
   BSA                  Bank Secrecy Act
   CBRS                 Currency and Banking Retrieval System
   DEA                  United States Drug Enforcement Administration
   EDS                  Electronic Data Systems
   FinCEN               Financial Crimes Enforcement Network
   FIU                  Financial Intelligence Unit

                        TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                                    Page 1
                        Taken Steps to Better Analyze Bank Secrecy Act Data But
                        Challenges Remain (OIG-06-030)
HIFCA     High Intensity Money Laundering and Related Financial Crime Area
NACLC     National Agency Check with Local Record Check
IRS DCC   Internal Revenue Center Detroit Computing Center
PAR       Performance and Accountability Report
SAR       Suspicious Activity Report
SQS       Suspicious Activity Report Query System




          TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has            Page 2
          Taken Steps to Better Analyze Bank Secrecy Act Data But
          Challenges Remain (OIG-06-030)
                                                                            Audit
OIG
The Department of the Treasury
                                                                            Report
Office of Inspector General




                  May 18, 2006

                  Robert W. Werner
                  Director
                  Financial Crimes Enforcement Network

                  The Financial Crimes Enforcement Network (FinCEN) was
                  established in April 1990 to provide a government-wide,
                  intelligence and analytical network to support the detection,
                  investigation, and prosecution of domestic and international money
                  laundering and other financial crimes. In May 1994, FinCEN
                  assumed responsibility for administering the Bank Secrecy Act
                  (BSA), a law enacted to help deter, detect, and investigate money
                  laundering. The USA PATRIOT Act of 2001 elevated FinCEN to
                  bureau status and required FinCEN to furnish research, analytical,
                  and informational services to financial institutions and appropriate
                  law enforcement authorities to fight terrorism, organized crime, and
                  money laundering.

                  The objective of our audit was to determine the extent to which
                  FinCEN performed complex analyses of BSA and other data
                  intended to provide law enforcement with new leads or clues
                  regarding individuals, entities, and organizations engaging in
                  terrorist acts or money laundering. The report also discusses issues
                  wei  dent if
                             iedwi  t
                                    hFinCEN’   scasemanagementi     nformationsyst em,
                  known as the FinCEN Database, and with certain weaknesses we
                  identified with data security controls.

                  We conducted our fieldwork between September 2004 and July
                  2005 at FinCEN Headquarters in Vienna, Virginia and in
                  Washington, D.C. We reviewed applicable laws and regulations
                  relat
                      edt  oFinCEN’ s duties and responsibilities. We also reviewed
                  FinCEN’ sst rat
                                egicpl an,annualandper   for manceandaccount     abi
                                                                                   li
                                                                                    ty
                  reports, standard operating procedures, and studies related to case
                  processing and data analysis. We interviewed officials from

                  TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 3
                  Taken Steps to Better Analyze Bank Secrecy Act Data But
                  Challenges Remain (OIG-06-030)
                      FinCEN’  sAnal yticsDi visi
                                                onand Client Liaison and Services
                               1
                      Division in Vienna, Virginia, and the Regulatory Policy and Program
                      Division in Washington, D.C. We selected and reviewed a random
                      sample of FinCEN Database cases from an electronic data file for
                      fiscal years 2003, 2004, and the first quarter of 2005, and
                      reviewed corresponding documentation to assess the status,
                      completeness, and timel   i
                                                nessofFi  nCEN’ spr  oducts.We examined
                      theanal  yti
                                 calnat ureofFi  nCEN’ spr oduct s, and the methods, tools,
                      and techniques FinCEN used to conduct its data analysis. A more
                      detailed description of our objectives, scope, and methodology is
                      provided as appendix 1.

Results in Brief
                      FinCEN’ sstrategic plan includes several key objectives for adding
                      value to its analytical program. One objective i  nFi nCEN’  sf i
                                                                                      scal
                      years 2006-8 plan was to adjust its support of law enforcement
                      investigations by performing complex data mining and analysis.2
                      FinCEN planned to increase its analytic products while reducing
                      time spent in routine data retrieval. This strategy was designed to
                      shiftFinCEN’  sef fortf rom routine data retrieval (reactive cases) to
                      complex data mining (proactive cases). The Department of the
                      Treasury’ sOffice of Performance Budgeting (OPB) approved a
                      measure for fiscal years 2005-6 to evaluate Fi   nCEN’  sefforts: the
                      percent ageofFi  nCEN’  scust omer sfinding Fi nCEN’  sanal ytical
                      support valuable. In November 2005, the Department of the
                      Treasury reported in its FY 2005 Performance and Accountability
                      Report (PAR) t hat73per    centofFi nCEN’  scust omer  sf oundt  he
                      support valuable.

                      Though the results were favorable, this measure did not
                      comprehensively assessFi    nCEN’ scomplex data mining and
                      analysis. We were unable to assess the support for fiscal year
                      2005 results, but by reviewing fiscal year 2004 customer response
                      data, also largely favorable, we found that a large percentage of
                      the input was related to the results of reactive case work and
                      included very limited data related to proactive cases.


1
  This division was renamed to the Information and Technology Division following our audit.
2
  Data mining for FinCEN is the process of analyzing BSA, law enforcement, and commercial data to
identify possible terrorist financing, money laundering, and other criminal activity.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                        Page 4
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
FinCEN has taken steps to increase its use of analytic tools and
methods for identifying trends and patterns in BSA data. However,
we r eviewedFi   nCEN’ sanalyticdatafor fiscal years 2003 through
the first quarter of 2005 and found that FinCEN had made limited
progress in increasing its complex data mining and analysis (i.e.,
proactive case work). Proactive case work increased during this
period, from 6 per  centofFi nCEN’sanal  yt i
                                            calcasewor  kin2003to
10 percent in 2005 as reported in the Department of the
Treasury’  sfiscal year 2005 PAR. Filling law enforcement requests
for specific information, known as reactive case work, continued to
be FinCEN’  sfocus.

FinCEN’ sef for ttoconduct more complex analysis was hindered in
2004-5 by the release of all 63 of its contractor employees. These
employees had been handling about a third ofFi   nCEN’ sreact  i
                                                               ve
case work and, upon release, this work was reassigned to
FinCEN’ sanal  ysts.The contractor employees were released by
October 2004 because their employers did not complete Fi    nCEN’ s
required upgr adeoft  heempl  oyees’security clearances. Because
release of the contractor employees resulted in a case backlog,
FinCEN informed law enforcement agencies in February 2005 that
routine domestic data requests, both existing and future, would be
processedonl  ywhenFi    nCEN’ sanal ystshadt imeavai lable. In
March 2005, under a new contract, FinCEN began to rebuild the
contractor staff, bringing on board 10 contractor employees with
Top Secret clearances.

As we requested dat   aonFi  nCEN’ sefforts and results, we found
that the bureau did not have reliable management information to
assess Fi nCEN’ sanalytical work. FinCEN uses the FinCEN Database
to determine the status of its products and to report the results of
its case work in both its annual report and The Department of the
Treasury PAR. Included in these reports are the number of
investigative cases, subjects, and strategic analytic products.
However, we found that the data were not always accurate or
reliable. We also found that the Database did not always contain
information about the timeliness of work or resources used. Data
problems resulted from a combination of system weaknesses that
made it difficult to develop summary data, and data recording
errors that occurred when analysts did not record data in
accordance with standard operating procedures. FinCEN also made


TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 5
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      changes in how data were categorized from year to year, which
                      required us to re-categorize certain data to ensure comparability.

                      In addition to data management issues, we found that certain
                      internal controls over BSA and law enforcement data were weak
                      and could allow these data to be compromised. First, as of July
                      2005, FinCEN had not scheduled 28 of 66 required on-site
                      inspections due in fiscal year 2005, in accordance with its
                      Gateway Inspection Policy and Procedure. Gateway is a system
                      used by law enforcement to remotely access BSA data and FinCEN
                      performs on-site inspections of user sites to determine whether
                      system use is proper.3 Second, FinCEN has neither a policy nor a
                      methodology to review internal analyst queries for possible misuse
                      or abuse or to prevent and detect browsing of BSA and law
                      enforcement data. Although we did not identify inappropriate use,
                      we believe internal users represent an inherent risk and that a
                      policy and methodology for monitoring would be a beneficial
                      control. Third, after FinCEN increased the security level requirement
                      for its contractor employees, they were allowed to access sensitive
                      but unclassified BSA and other data, even though they had not yet
                      obtained the proper clearances.

                      We made several recommendations to FinCEN to improve the
                      bureau’ smanagementofi   t sanalytical program, strengthen the
                      case management system, and improve data security controls. The
                      specific recommendations are presented in the body of the report.
                      FinCEN concurred with our recommendations and has either
                      completed action or established target dates for completion.

Background
                      Section 361 of the USA PATRIOT Act

                      On October 26, 2001, the President signed into law the Uniting
                      and Strengthening America by Providing Appropriate Tools
                      Required to Intercept and Obstruct Terrorism (USA PATRIOT) Act
                      of 2001 (Public Law 107-56). Section 361 of the act added a new
                      section 310 to Subchapter I of chapter 3, title 31, of the United
                      States Code that defines FinCEN’ sdut i
                                                            esto analyze BSA data and

3
  FinCEN provided data following our exit conference which showed the bureau completed these
inspections during the last quarter of fiscal year 2005 (23) and the first quarter of 2006 (4).

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                           Page 6
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
                       disseminate the data to financial institutions and appropriate law
                       enforcement authorities. These data are for use in identifying,
                       preventing, and prosecuting terrorism, organized crime, and money
                       laundering. In addition, the act requires FinCEN to determine
                       emerging trends and methods in money laundering and to support
                       intelligence activities against international terrorism.

                       Fi
                        nCEN’
                            sAnal
                                yti
                                  csDi
                                     visi
                                        on

                       As of January 2005, FinCEN employed 98 analysts in its Analytics
                       Division, which is composed of the Office of Law Enforcement
                       Support, Office of Regulatory Support, and Office of Global
                       Support. Under a July 2004 reorganization, analysts are expected
                       to handle all types of cases, including both routine data requests
                       and proactive case work.4 (See appendix 2 for organizations charts
                       and descriptions of each office.) Intelligence research specialists
                       and law enforcement staff support financial criminal investigations
                       through research and analysis of information. FinCEN also employs
                       contractor staff to do research, primarily for the routine request for
                       information cases.

                       FinCEN’ sAnalytics Division works closely with the bur   eau’ sClient
                       Liaison and Services Division to coordinate these efforts. The Client
                       Liaison and Services Division trains federal, state, and local
                       agencies to access data via Fi nCEN’ sGateway system, which
                       gives users direct access to BSA reports, and monitors use of the
                       system. When two or more agencies query the same subjects, the
                       Division links the agencies, enabling them to coordinate their
                       investigations.

                       Databases Used

                       Several databases are available to FinCEN analysts conducting
                       research and analysis.

                            The FinCEN Database contains subjects or businesses
                             FinCEN has researched in its commercial, financial, and law

4
  Before the reorganization, the Division was organized by the types of products produced, including
tactical, strategic, or PATRIOT Act 314 requests. The Office of Investigative Support provided tactical
support (focused on individuals and entities, i.e., subjects) and PATRIOT Act 314 requests (focused on
information sharing between law enforcement and financial institutions) and the Office of Strategic
Analysis offered analytical support (focused on particular topics, such as money laundering).

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                           Page 7
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
                                enforcement databases. This database includes investigative
                                and intelligence cases, financial institution Hotline tip cases,5
                                and strategic analysis cases; assigns a number for each
                                entry; and contains data such as the number of subject(s),
                                date of request, date entered, date started and ended, case
                                status (such as open or closed), and case type. As such, the
                                FinCEN Database not only provides FinCEN with the ability
                                to track resources used to develop cases but also is an
                                analytical resource for conducting research on new subjects.

                             External financial, law enforcement, and commercial
                              databases are used for responses to requests for research
                              and for performing data analysis. Financial databases include
                              the Currency and Banking Retrieval System (CBRS), which
                              houses BSA Currency Transaction Reports for transactions
                              greater than $10,000 and Suspicious Activity Reports (SAR)
                              from institutions citing suspicious financial transactions.
                              Another financial database is the Currency and Banking
                              Query System, which allows users to query narrative
                              information contained in the SARs. The Treasury
                              Enforcement Communications System contains useful law
                              enforcement data and provides access to the National Crime
                              Information Center and National Law Enforcement
                              Telecommunications Center. Other law enforcement
                              databases include the U.S. Drug Enforcement Administration
                              Narcotics and Dangerous Drug Information System and U.S.
                              Postal Inspection Database. Commercial databases, such as
                              Dun and Bradstreet Worldbase, are also used.

                        Users of Fi
                                  nCEN’
                                      sAnalytical Data

                        User sofFi nCEN’ sanal
                                             yt i
                                                caldatai ncludef ederal,st at
                                                                            e,local
                                                                                  ,and
                        foreign law enforcement agencies. Other users include Congress,

5
  FinCEN’ sFi nancialI ns t
                          itution Hotline allows financial institutions to expeditiously contact FinCEN
directly about any suspicious activity related to terrorism. If the tip involves an imminent threat, FinCEN
instructs the financial institution to contact the nearest Federal Bureau of Investigation (FBI) office, and
FinCEN forwards the information to other law enforcement agencies, such as the U.S. Office of
Immigration and Customs Enforcement (ICE), Internal Revenue Service Criminal Investigative Division
(IRS-CID),andTr   easur y’s Office of Intelligence and Analysis. FinCEN then searches financial and law
enforcement databases using names, accounts, addresses, and other identifiers provided from the
Hotline tip and prepares a written report with results and conclusions for law enforcement. Hotline tip
cases are not coded separately in the FinCEN Database.

                        TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                              Page 8
                        Taken Steps to Better Analyze Bank Secrecy Act Data But
                        Challenges Remain (OIG-06-030)
Fi
 nCEN’ sRegulatory Policy and Programs Division, and federal
bank regulatory agencies.

Certain regulatory and law enforcement agencies house individuals
at FinCEN to conduct research. These are known as Platform Users
and are generally short-term. Detailees or Representatives are
similar, but use FinCEN data resources for longer periods of time.

Gateway users include employees of federal law enforcement
agencies, st  at
               eandl  ocalpolice,andst  at es’attorneysgener  al,
district attorneys, bureaus of investigations, and departments of
public safety who access BSA reports in the CBRS financial
database from their own locations. Gateway, which is managed by
the Client Liaison and Services Division, allows investigators to
conduct their own research and analysis of BSA data, rather than
relying on Fi nCEN’ sresources. Gateway has a feature that
automatically signals FinCEN when two or more agencies have an
interest in the same subject. This feature allows FinCEN to assist
participating agencies in coordinating their investigations.

Users of FinCEN analytical data also include teams that consist of
FinCEN analysts working on cases in federally designated high-
intensity money laundering zones around the country, known as
High Intensity Financial Crimes Areas (HIFCA). The purpose of
these zones is to concentrate law enforcement efforts at the
federal, state, and local level to combat money laundering.

BSA Direct

FinCEN awarded a contract to Electronic Data Systems (EDS), a
global information technology services company, to design,
develop, implement, and provide Web-hosting and support services
for a new information storage and delivery system called BSA
Direct. FinCEN believes BSA Direct, which will replace the Gateway
system, will enhance how data collected under the BSA are stored,
accessed, and utilized. Through BSA Direct, FinCEN plans to
provide authorized law enforcement and financial regulatory
organizations with Web-based access to BSA data and improved
analytical tools to ensure these data are fully and appropriately
used, while preserving information security. On March 15, 2006,
FinCEN’  sDi r
             ect orissuedat  empor ary“st opwor   k”or derforBSA
Direct and ordered FinCEN staff and BSA contractor, Electronic

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 9
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      Data Systems to pause for up to a 90-day period. He stated
                      concerns with the project repeatedly failing to meet its
                      performance milestones.6

Findings and Recommendations

Finding 1             FinCEN Is Performing More Complex Analysis in Line with
                      PATRIOT Act Requirements but Needs to Better Plan and
                      Measure the Effort

                      Since passage of the USA PATRIOT Act, FinCEN has attempted to
                      conduct more complex investigative case analysis to better combat
                      terrorist financing and money laundering threats. This is consistent
                      with FinCEN’   sstrategic plan, which directs FinCEN toward
                      producing more analytical products in lieu of routine data retrieval.
                      FinCEN established several performance measures to internally
                      evaluate its analytical efforts, one of which—customer satisfaction
                      wi thFi nCEN’  sanal yti
                                             calpr oduct s—was approved for the fiscal
                      year 2005 PAR. Accor    dingt  oFinCEN’ s2005PAR, 73 percent of
                      respondents reported themselves satisfied on this measure. Though
                      we did not assess the support for the 2005 results, our review of
                      customer satisfaction data from fiscal year 2004 indicated that few
                      customers responded and most of the responses dealt with routine
                      data retrieval (reactive cases). As a result, these customer
                      response data were of little use in evaluating complex analysis
                      (proactive cases).

                      Although FinCEN has taken the initiative to improve analytical tools
                      and methods to allow for increased proactive work, progress in
                      achieving this goal has been slow. FinCEN’  sproactive cases
                      increased from 6 percent of total cases in fiscal year 2003 to 10
                      percent in 2005.7 Despite the modest increase, however, several of
                      FinCEN’ sproactive cases referred potentially important information
                      to enforcement agencies.




6
  FinCEN’  sDirectorprovided this information regarding the BSA Direct project in a March 15, 2006
letter to the Chairman of the U.S. Senate Committee on Banking, Housing and Urban Affairs.
7
  We cannot attest to the validity of these data because we found that the data source, the FinCEN
Database, is unreliable. See finding 2.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                        Page 10
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
FinCEN’  seffort to increase its proactive case work was slowed
when the bureau, upon realizing that contractors were handling
increasingly sensitive information, increased contractor employee
security level requirements from Secret to Top Secret. FinCEN
imposed an October 2004 deadline on contractors to get their
employees upgraded, but contractors were unable to meet the
deadline. As a result, by October 2004 FinCEN released all
contractor employees. These employees had been conducting over
one-t hir
        dofFi  nCEN’  sreactive case work, and their release resulted
in a reactive case backlog. To enable its own analysts to continue
working on higher-priority proactive cases, FinCEN informed law
enforcement agencies in February 2005 that existing and future
domestic, non-terrorism and non-complex requests would be
re-evaluated and processed as the analysts could work the cases.

FinCEN’sSt
         rat
           egi
             cPl
               anFocuses on Adding Value to the Analytical
Program

FinCEN’  sSt r
             at egicPlanf orf i
                              scalyear s2006-8, which discusses
FinCEN’  sappr oacht oachi  evi
                              ngitsmi  ssiondur i
                                                ngt  hisper i
                                                            od,
includes a specific goal to combat terrorism, money laundering, and
other financial crime through analysis of BSA data and other
relevant information. Under this goal are several strategic
objectives:

    expanding the production of analytic products that
     incorporate analysis of relevant classified information
    producing policy-level assessments of terrorist financing and
     money laundering threats that combine BSA data with other
     information sources
    adjusting Fi nCEN’ ssupportofl aw enforcement
     i
     nvest igat i
                onst  obet t
                           errefl
                                ectFinCEN’ si ncreased
     capabilities to perform complex data mining and analysis
    applying analytical resources to support regulatory activity
     concerning the BSA

Within these objectives are numerous strategies that provide a
framework for how FinCEN intends to accomplish its objectives.
For example, FinCEN plans to increase the number of analysts with


TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 11
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      full access to classified data, provide analysts the knowledge and
                      skills necessary to expertly analyze information, reduce the time
                      spent by analysts on routine data retrieval, and increase the
                      number of analytic products supporting law enforcement
                      investigations.

                      To lay the groundwork for meeting the pl   an’ sobject i
                                                                             ves,FinCEN
                      established four performance measures for its Analytics Division for
                      fiscal year 2005. Tr  easur y’sOPB approved one of these measures
                      for inclusion in the fiscal year 2005 PAR: the percentage of
                      cust omer sf i
                                   ndi ngFi nCEN’  sanal yt
                                                          icsuppor  tvaluable.8 In
                      November 2005, Treasury reported that 73 percent of the
                      cust omer sf oundFi  nCEN’  ssuppor t valuable. The other measures,
                      used for internal purposes, included the following:

                           percentage of complex analytic work completed by FinCEN
                            analysts (10 percent goal and 10 percent actual)
                           median time from date of receipt of terrorist financing SAR
                            or Financial Institution Hotline Tip SAR to referral of a
                            written analytical report to law enforcement or the
                            intelligence community (80 days goal and 77 days actual)
                           average time expended to perform financial institution review
                            dealing with compliance issues in response to memoranda of
                            understanding with regulatory agencies (65 days goal and 62
                            days actual)

                      Because fiscal year 2005 PAR data supporting the above measures
                      was not complete at the time of our fieldwork, we reviewed data
                      for fiscal years 2003-4 and the first quarter of fiscal year 2005.
                      We found that we could not verify case summary completion or
                      timeliness data produced by FinCEN’    scasemanagementsyst        em.
                      This is discussed in detail in finding 2 of this report. In reviewing
                      customer feedback data, we found the data of limited value
                      because FinCEN had a low customer response rate, lacked a formal

8
 OPB encourages the bureaus to administer their programs in a manner that ensures that programs
achieve desired results. According to OPB, “Iftheans wer[about whether a program is meeting its
desired outcomes] i s‘ no’or‘ wedon’  tknow, ’they[management] must do something about it, such as
clearly define the desired outcomes, determine the causes of unsatisfactory performance, construct
plans to remedy any problems, develop aggressive timeframes for taking action, and ensure that actions
are implemented.”


                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                        Page 12
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
system to accumulate and monitor the results, and had little
i
nformat  i
         onavai lableconcerningt heval  ueofFi nCEN’ spr oact i
                                                              ve
analysis to law enforcement. This is discussed in more detail
below.

Customer Response Data Are Not Formally Documented
and Provide Little Useful Information to Assess Complex Analysis

The FinCEN strategic plan cites the use of customer ratings as a
means of measuring the quality of its analytic products. However,
the response rate to FinCEN customer survey forms included with
each of its case reports has also been low. FinCEN also does not
have a formal reporting system to accumulate and monitor the
results derived from customer response forms provided with each
of its case reports. To compensate for the low response rate,
FinCEN requested information through email and telephone
surveys. Fi nCEN’  sOffice of Regulatory Support, which performs
institutional trend analysis, has an informal process to record
responses to surveys provided to institutions.

FinCEN includes customer response forms with each of its
completed case reports. We found two versions of a customer
response form for reactive cases and one form for proactive cases.
FinCEN forms asked customers if (1) the bureau adequately
responded to their requests, (2) more analytical support would
have been useful, (3) the information was timely, (4) the
information was shared with other agencies, and (5) they were
satisfied overall with the services provided by FinCEN. One of the
two versions of the form for reactive cases also asked customers
to identify the ways in which information provided by FinCEN
assisted investigations. The brief proactive form asked whether the
information FinCEN provided was used to open a case or assign a
preliminary investigation or was retained for future use. FinCEN
also asked if the information assisted the agency.

In addition to the lack of a formal reporting system for responses to
FinCEN customer response forms, the number of completed forms
returned to FinCEN, particularly involving proactive cases, has been
low. For fiscal year 2004, for example, FinCEN received
information on 582 cases out of 6,270, or 9 percent, and the vast
majority of the 582 cases, 493, involved routine reactive case


TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 13
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      work.9 We found 51 responses related to proactive cases, which
                      we believe were so few in number that they may have been of
                      limited value to FinCEN in enhancing complex analyses.

                      Although the number of forms that FinCEN received was low,
                      feedback has been positive. Based on our review of customer
                      response forms returned for 2004 cases, we found that by and
                      large FinCEN’ scust  omerswer  esat
                                                        isfied.We found only isolated
                      instances of customer concerns. In 6 of the 493 reactive cases,
                      customers reported that Fi nCEN’ sproductwasei    theruntimel yor
                      did not satisfy the request. However, in 6 of the 51 proactive
                      cases, customers reported that the product did not assist the
                      agency.

                      Agency and FinCEN officials offered explanations for the low
                      response rate. A law enforcement agency official who serves as a
                      liaison to FinCEN commented that customers can be so focused on
                      the information FinCEN provides they overlook the customer
                      response form. A FinCEN Associate Director said that the feedback
                      process may request a response before an investigator has fully
                      assessed the importance of the information. However, FinCEN’     s
                      Assistant Director of Client and Liaison Services Division told us
                      that FinCEN has also not been successful in obtaining responses
                      using follow-up letters.

                      FinCEN Has Taken Initiatives to Enhance Data Analysis

                      FinCEN has taken steps to increase its use of analytic tools and
                      methods for identifying trends and patterns in BSA data.10 For
                      example, FinCEN made software such as VisuaLinks, Suspicious
                      Activity Report Query System (SQS), Analytical System for
                      Investigative Support (ASIS),MapI    nfo,andAnal   yst
                                                                           ’sNot ebook
                      available to its analysts to develop their cases. These tools allow
                      analysts to link related data, including links among people,
                      transactions, and locations, and to identify trends. (See appendix 3

9
  FinCEN included in this information 38 completed customer response forms for HIFCA, Platform, Office
of Global Support, and Office of Regulatory Support cases. These cases were neither reactive nor
proactive.
10
   FinCEN is hampered in this effort, however, by the fact that FinCEN cannot add any data query tools
to the current Gateway system because the BSA data are housed in an Internal Revenue Service
computer system. According to FinCEN, this will change when FinCEN transitions from Gateway to BSA
Direct.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                       Page 14
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
                     for further description of the software.) Also, in 2004, FinCEN
                     created a Counter-Terrorism SAR Review Program. FinCEN
                     maintains three analysts and a team leader to search SARs for
                     terrorist-related activity. They monitor and review SARs filed on
                     activity indicative of terrorism and proactively develop cases for
                     referral to law enforcement and intelligence.11

                     In addition, FinCEN's Technology Working Group, established in
                     January 2005, is developing an in-house system to allow more
                     uniform analysis of BSA data. The group is currently working to
                     convert large downloads of text file BSA data from the Internal
                     Revenue System Detroit Computing Center (IRS DCC) into
                     meaningful reports and summaries.

                     Moving forward, FinCEN wants to eliminate information requests
                     that can be performed by the customers and to focus on
                     performing data analysis. Toward this end, FinCEN intends to
                     transition mor ecust  omer stoFi nCEN’ sGat  ewaysystem for simple
                     data requests and has sought to provide additional information to
                     law enforcement users about other user    s’information requests
                     involving the same subjects. FinCEN refers to the process by which
                     it notifies agencies that the same individuals or businesses have
                     been the subject of previous research requests as Networking.
                     Ultimately, FinCEN wants to move customers to BSA Direct so
                     they can more easily conduct their own research. FinCEN is
                     working with both the MITRE Corporation and EDS, the BSA Direct
                     contractor, to explore new text mining software that will simplify
                     and enhance user access to BSA data.

                     Proactive Cases Remain a Small Percentage of Total Cases

                     While FinCEN categorizes its analytical cases in several different
                     ways, Fi  nCEN’ sanalytical workload consists mainly of either
                     reactive cases--responses to requests for information--or proactive
                     cases--complex analyses to target potential money laundering and
                     terrorist financing activities. A reactive case generally involves
                     particular people or entities and is based on a law enforcement
                     request that can be satisfied with simple queri  esofFi  nCEN’  s

11
  Because FinCEN did not have a unique category in the FinCEN Database for cases handled by the
Counter-Terrorism SAR Review Program, we were unable to determine the number of cases handled by
this team of analysts.

                      TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                    Page 15
                      Taken Steps to Better Analyze Bank Secrecy Act Data But
                      Challenges Remain (OIG-06-030)
                       financial, law enforcement, and commercial databases. Work on
                       certain types of reactive cases is donebyFinCEN’ sin-house
                       analysts and work on others is done by contractors.12

                       A proactive case generally involves developing new information
                       about possible terrorist financing, money laundering, or other
                       criminal activity through the analysis of BSA, law enforcement, and
                       commercial data. FinCEN has been attempting to increase its
                       proactive case work. Despite its efforts, proactive cases made up a
                       small percentage of FinCEN cases in fiscal years 2003-5. In fiscal
                       year 2003, proactive cases represented 6 percent of case work. In
                       2004, this percentage rose to 8 percent. In 2005, FinCEN reported
                       that proactive cases increased to 10 percent of total cases.

                       FinCEN established a goal of 10 percent for 2005.13 FinCEN
                       believed this goal would help allow the bureau to assess its efforts
                       to increase complex analysis. Fi nCEN’sgoalis 25 percent for 2006
                       is 50 percent for 2007.

                       Proactive Cases Have Evolved Over Time

                       Since September 11, 2001, FinCEN has adjusted the focus of its
                       proactive case work to account for the threat associated with
                       terrorist financing. FinCEN's analytical efforts were re-focused on
                       identifying terrorist funding activities. Analysts searched SARs
                       using key words and geographic areas associated with terrorism.

                       In2004,Fi   nCEN‘  sCount  er-Terrorism SAR Review Program
                       assigned analysts to review SARs indicative of terrorism and to
                       refer possible terrorism-related SARs to the original requestors or
                       recipients of information on those subjects. However, according to
                       a FinCEN Assistant Director, agency feedback on these types of
                       cases was so minimal that FinCEN was unable to determine if its
                       efforts were producing useful information for the agencies.
                       Therefore, instead of sending reports to agencies that may not be

12
   FinCEN also has levels of research associated with these cases. These are referred to as Tier 1, Tier
2, and Tier 3. Tier 1 addresses a basic request for a specific subject, and Tier 2 is more complex and
involves additional related subjects. Tier 3 research involves additional subjects beyond Tier 2 and cases
identif
      iedf rom Fi nCEN’  sresearchandanal    ysis
                                                .
13
  Fiscal year 2005 was the first year FinCEN established a goal for the percentage of complex analysis
cases.

                        TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                          Page 16
                        Taken Steps to Better Analyze Bank Secrecy Act Data But
                        Challenges Remain (OIG-06-030)
                       interested in receiving the information, FinCEN has been working
                       with federal agency representatives to solicit their input on more
                       meaningful areas for developing leads. FinCEN believes this will
                       increase the likelihood that an agency will follow the lead and open
                       its own case.

                       FinCEN is also commissioning an analytic team to begin the “SAR
                       Mappi  ngPr oject”t ot agSARcl   ust
                                                          ersbytypeofact   i
                                                                           vity,
                       geographic scope, HIFCA links, number of subjects, number of
                       accounts, foreign involvement, and other factors to be developed
                       by the team. FinCEN hopes this will allow the bureau to better
                       focus analyst efforts. FinCEN had not produced results from this
                       effort at the time of our audit.

                       Though Limited, FinCEN’  sEvol vi
                                                       ngPr  oacti
                                                                 veCase Work Has
                       Referred Potentially Important Cases to Law Enforcement

                       In our case review, we found evidence that FinCEN’ sproactive
                       case referrals could benefit law enforcement. The eventual results,
                       however, would depend on what law enforcement was able to
                       accomplish once the analyses were received. We identified the
                       following case referrals from cases FinCEN provided to law
                       enforcement agencies:

                            Analysts identified suspicious check and wire transfer
                             activity involving a pharmaceutical company and its owners.
                             Sever  alchecksf  r
                                               om t hesubj ects’account swer  edeposited
                             in high-risk countries. FinCEN forwarded the information to
                             liaisons at the FBI and ICE.
                            Usingt hesear chcriteri
                                                   on“moneyr    emi tter,”an analyst
                             conducted an analysis of SAR narratives filed in fiscal years
                             2003 and 2004 to pinpoint money service businesses that
                             might be engaging in suspicious activity.14 The results were
                             forwarded to IRS.
                            Inacaseper    f
                                           ormedpur  suantt  oFinCEN’ sCount  er-Terrorism
                             SAR Review Program, an analyst found 19 additional SARs
                             that were filed on the subject. The information from these
14
  FinCEN defines money services businesses as including the following five types of financial services
providers, as well as the U.S. Postal Service: (1) currency dealers or exchangers; (2) check cashers;
(3) i
    ssuersoft  r
               avel er’schecks ,moneyor   der s,ors tor edvalue;( 4)s ell
                                                                        ersorredeemer   softraveler
                                                                                                  ’s
checks, money orders, or stored value; and (5) money transmitters.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                          Page 17
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
                              additional SARs was forwarded in a memorandum to the
                              requester.
                            A FinCEN analyst took three original subjects from a prior
                             314(a) case15 request of ICE and searched financial,
                             commercial, and law enforcement databases for additional
                             information. Theanal  yst’ssear chfort heset  hreesubj ect
                                                                                      s
                             yielded four additional SARs in which they were named, and
                             these four SARs identified six additional subjects. This
                             information was referred to ICE.

                       FinCEN Has Experienced a Backlog of Reactive Cases

                       Over the past decade, FinCEN has filled information requests from
                       law enforcement agencies and the regulatory and financial
                       communities. FinCEN accomplished this work with help from
                       contractors. As FinCEN has moved more of its analysts to
                       proactive work, contractors have become important in meeting
                       requestor needs. However, in fiscal year 2004, FinCEN reorganized
                       and increased BSA data security requirements, which included
                       elevating the contractor security clearance level from Secret to Top
                       Secret.

                       When Fi nCEN’ scontractors (who brought 63 employees on board
                       from 1992 through 2004) were unable to furnish FinCEN with Top
                       Secret clearances for their employees by October 2004, the
                       employees were released. Consequently, FinCEN no longer had
                       contractors available to handle reactive cases, and a backlog of
                       cases developed. In February 2005, FinCEN’   sdata showed 526
                       cases awaiting completion, including 344 waiting to be started.16

15
  Law enforcement can send what are known as 314 (a) requests to FinCEN to forward to financial
institutions to locate accounts and transactions of subjects who may be involved in terrorism or money
laundering. The financial institutions query their records for data matches, including accounts
maintained by the named subject during the preceding 12 months and transactions conducted within
the last 6 months. The financial institution notifies FinCEN if a match is found for the named subject
and provides point-of-contact information. The financial institutions have 2 weeks from the transmission
date ofFi  nCEN’  sreques ttor espond.
16
  This information is from a FinCEN Database report of bi-monthly inventory counts of cases
categorized as started, not started, opened, and closed. The reliability of this information may be
questionable because we found handwritten numbers on these reports that were not reflected in the
case numbers generated from the system. Also, cases were omitted from the report because the dates
wer e“ mi sal
            igned”i nt hesys tem, meaning that the start and close dates were out of sequence.
Considering these anomalies, we cannot attest to the accuracy of the case numbers reported.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                         Page 18
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
To compensate, in February 2005 FinCEN placed a moratorium on
non-terrorist related reactive case work. The moratorium required
agencies to do research on domestic non-terrorism cases, using
their own access to the data, freeing FinCEN analysts to perform
more proactive analytical work. FinCEN officials envisioned that
requests for non-terrorism research would decrease following the
moratorium.

Although FinCEN made some progress in reducing this workload,
the backlog was not entirely eliminated. As of July 2005, FinCEN
reported 170 unassigned domestic non-terrorism requests dating
back to December 2004.

At the time of our audit, FinCEN was in the process of transitioning
agencies with low-priority case support work to researching their
own cases via the Gateway system. From March through July
2005, FinCEN also hired 10 contractor staff with updated security
clearances to assist with these requests. Although the number of
incoming domestic requests declined, FinCEN was not able to
eliminate the backlog.

Task Force Recommended Change

InNovember2004,Fi     nCEN’ sCaseManagementTaskFor         ce,
established to review analytical processes and services,
recommended short-term priorities and long-term strategies to
maximize client benefit and increase the value and impact of future
FinCEN products. For the short-term, the Task Force recommended
prioritizing work, empowering law enforcement users to handle
their own requests, developing policies for the future, and
streamlining the processing of requests. For the long-term, the
Task Force recommended developing strategies to increase
responsi  venesst ocustomer sanddevel   opingFi nCEN’ sI ntel
                                                            li
                                                             gence
Research Specialists through training and experience. At the time
of our review, we could not assess how well FinCEN had
addressed these recommendations.

Conclusions

FinCEN has found it difficult to increase the number of proactive
analytic products supporting law enforcement investigations that

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 19
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
incorporate complex analysis. Nonet  heless,FinCEN’ sanal yst s
appear to have referred potentially important information to law
enforcement. Because of continuing requests from law
enforcement for case support, coupled with the release of
contractors who had been working reactive cases, FinCEN needs to
find ways to ensure that its analysts can continue to work
proactive cases. In this regard, FinCEN should continue to direct
law enforcement to Gateway and, when available, the BSA Direct
system.

Recommendations

We recommend that the Director of FinCEN do the following:

1. Develop a strategy to i
                         mpl
                           ementFi
                                 nCEN’
                                     sgoalofper
                                              for
                                                ming
   more complex analysis.

Management Response The Director of FinCEN stated that in fiscal
years 2004-2005, the bureau’     s Analytics Division developed a
strategy to enhance the quality of its analytic products. This
included reducing the number of domestic routine cases, and
transitioning its customers requiring simple BSA data extracts to
FinCEN programs that allow direct access to BSA data. According
to the Director, FinCEN has engaged its customers to identify
opportunities for complex case support, and begun providing bulk
data downloads of the BSA data to its primary law enforcement
customers allowing them to integrate this data with their own data
warehouses. The Director also said FinCEN has participated in
monthly Law Enforcement Round Table meetings to identify how it
can better support law enforcement and provide more insightful
and higher quality analytic products. For example, FinCEN worked
with the Department and other agencies in the efforts to develop a
National Money Laundering Threat Assessment and identify
jurisdictions and institutions as primary money laundering concerns
under the USA PATRIOT Act. Internally, the Director said FinCEN
has increased the skills of its analysts with participation in training
sessions with organizations such as the Central Intelligence
Agency’   sSher manKentSchool     .Goi ngf orwar d,he indicated
FinCEN will continue its collaboration with law enforcement and
the intelligence communities to allow the bureau to continue to
provide more insightful and higher quality analytic products.


TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                 Page 20
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
            Overall, the Director said t
                                       hei
                                         mpr  ovementi
                                                     nFi
                                                       nCEN’
                                                           sanal
                                                               yti
                                                                 c
            products is a continuous process.

            OIG Comment Although FinCEN has identified the action as
            completed, we believe in future years FinCEN will need to
            continually reassess the strategy and make adjustments as needed.

            2. Devel opamechani     sm toper iodical
                                                   lyassessFi  nCEN’ sprogr
                                                                          ess
               in achieving its strategic goals and objectives, and make
               corrections if goals and objectives are not met.

            Management Response The Director of FinCEN stated that the
            bureau began tracking its strategic goals through a Quarterly
            Performance Report that included targets for each performance
            measure and milestone. The results are reported each quarter to
            track progress. FinCEN has two performance measures for its
            analytic products. The first is the percentage of complex analytic
            work completed by FinCEN analysts. The percentage reported for
            fiscal year 2005 was 10 percent and the target for fiscal year
            2006 is 25 percent. The second measure is the percentage of
            cust omer sf i
                         ndingFi nCEN’ sanal  yticsuppor tvaluable. FinCEN
            reported 73 percent in fiscal year 2005, and has a target of 75
            percent in fiscal year 2006. The Director said FinCEN will re-
            evaluate the workload and the assessment method to identify
            additional steps required to improve the quality and value of its
            analytic products.

            OIG Comment In assessing the value of its complex analytic work,
            we believe FinCEN will need to find ways to improve the rate of
            customer response and the quality of information received.

Finding 2   The FinCEN Database Cannot Be Relied On for Accurate
            and Complete Data

            Section 361 of the USA PATRIOT Act requires FinCEN to analyze
            and disseminate available data to identify possible criminal activity
            to appropriate federal, state, local, and foreign law enforcement
            agencies, and determine emerging trends and methods in money
            laundering and other financial crimes. FinCEN is to document the
            results of this analytical effort in its case management system
            known as the FinCEN Database. The act also requires FinCEN to


            TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                Page 21
            Taken Steps to Better Analyze Bank Secrecy Act Data But
            Challenges Remain (OIG-06-030)
establish and maintain operating procedures with respect to the
use of its databases. FinCEN established standard operating
procedures t oi nstructanal yst sont  hesyst em’ sdat
                                                    arequirements
and their role in entering data into the system.

We reviewed the data maintained in the system and found that
FinCEN does not have reliable management information that can
accurately and consistently represent the status, completeness,
and timeliness of its research, analytical, and informational
services. We found that the FinCEN Database produced different
case number totals for the same date, contained data that did not
agree with case file documentation, and lacked information on
resources used to develop the cases or track timeliness. Data
errors resulted from system weaknesses that made it difficult to
develop accurate summary data and from recording errors made by
analysts. Recording errors occurred when analysts did not record
data consistently or in accordance with standard operating
procedures. In addition, FinCEN did not have adequate controls to
prevent unauthorized deletion of cases.

Without reliable management information, FinCEN is unable to
determine whether it is efficiently and effectively using its
analytical resources. FinCEN is also unable to attest to the
reliability of information included in its annual report or the
Department of the Treasury PAR.

Case Data to be Entered in the FinCEN Database

FinCEN uses the FinCEN Database to manage its analytical cases.
The database includes specific case information, which is entered
by analysts. In the FinCEN Database standard operating
procedures, FinCEN instructs analysts to enter: (1) the number of
hours worked on a case, (2) the number and transaction amounts
of related BSA reports, (3) the number of subjects, (4) new
subjects, (5) networking status, (6) information including what the
requester is asking for and any significant findings, and
(7) conversations with the requester or progress on the case.

Requests for Case Status Produced Different Results

Despite the existence of standard operating procedures, we found
several problems with the case data housed in the FinCEN

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 22
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Database. These problems limited use of the system for analytical
purposes.

First, for a single query, the system can generate different results
for each day the query is run. For example, the system produced
conflicting information regarding the total number of cases
processed. Tables 1 and 2 below illustrate that FinCEN was unable
to provide us with compatible numbers for cases closed in fiscal
years 2003 and 2004. The data that were initially provided to us
on November 18, 2004, differed from the data subsequently
provided on December 2, 2004, for these same fiscal years. We
asked for this data in December because we could not reconcile
the fiscal year 2003 data provided by FinCEN in November. We
found the same problems with the data provided to us in
December. For example, the FY 2003 data that FinCEN provided in
December included a figure of 4,403 total cases, though the
subtotals by type of case totaled 4,228. In addition, in January
2005, FinCEN provided a total for fiscal year 2004 reactive cases
of 114, though the totals provided in November and December
2004 were 797 and 811, respectively.


Table 1: Differences in Fiscal Year 2003 FinCEN Case Total Data
 Type of Case          12-02-04      11-18-04      Difference

 Contractor                    2,033         2,035                 -2
 Reactive                        868           856                 12
 HIFCA                           541           541                  0
 Support                         537           528                  9
 Proactive                       249           247                  2

 Total FinCEN Cases            4,228         4,207                 21
                                   Note a
Source: OIG presentation of FinCEN data.
Note a: FinCEN actually provided us with data that showed a total of 4,403
cases as of December 2, 2004. However, we found that the supporting numbers
totaled only 4,228. The difference represented a mathematical error.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                    Page 23
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                   Table 2: Differences in Fiscal Year 2004 Case Total Data
                    Type of Case          12-02-04      11-18-04       Difference

                    Contractor                     1,305       1,298              7
                    Reactive                         811         797             14
                    HIFCA                            200         200              0
                    Support                          252         245              7
                    Proactive                        266         260              6

                    Total FinCEN Cases             2,834       2,800             34
                   Source: OIG presentation of FinCEN data.

                   A FinCEN official explained that differences exist in the numbers
                   from one month to another because reports generated from the
                   FinCEN Database are accurate only for a particular point in time.
                   The dynamic nature of the system allows cases to be reopened
                   after being closed, which changes the totals. The system cannot
                   generate reports that are consistent and comparable from one
                   period to another.

                   Second, we found that we could not reconcile closed cases. For
                   example, FinCEN provided a file showing that of 6,270 cases
                   FinCEN worked on in fiscal year 2004, 5,735 cases were closed
                   “nor mally.”17 Fi
                                   nCEN refer st otheseas“C”cases.However         ,out
                   of the 5,735 cases, 215 cases did not show an end date in the
                   system. I naddi ti
                                    on,wef  ound90ot    hercasesr  ecordedas“C”
                   cases that did not have a start date. FinCEN explained that analysts
                   enter data from the start of a case to its completion, but the
                   FinCEN Database was defaulting t   ot he“C”codefor these cases
                   even though they were still open. These cases would remain as
                   “C”casesi   nt hesystem unless FinCEN analysts corrected the
                   status manually.

                   Third, FinCEN relabeled cases during fiscal years 2003-5, making it
                   difficult to review data for trends. Excluding Platform cases, fiscal
                   year 2003 had six types of cases, 2004 had 19, and the first
                   quarter of 2005 showed 12. For example, the Analytical (“ANL”)

17
  The FinCEN Dat  abas ehasthr
                             eecodesforcl
                                        osedcases
                                                :“A”isforcas
                                                           est hatareadminis
                                                                           trat
                                                                              ivel
                                                                                 y
cl
 os ed;“C”i sf orcasest hatarecl
                               osedoutfol
                                        l
                                        owingthenormalpr
                                                       ocess;and“ N”isforcasesworked
with negative results.

                   TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 24
                   Taken Steps to Better Analyze Bank Secrecy Act Data But
                   Challenges Remain (OIG-06-030)
cases were found only in 2003. Support (“SUPP”) cases were
found in fiscal years 2003 and 2004, but not in the first quarter of
2005. While we understand that some of the case types were
changed to better represent the organizational needs existing at the
time, FinCEN did not have a method to consistently compare data
from year to year.

Case File Documentation Did Not Always Match Data in the
FinCEN Database

When compared with case file documentation, we determined that
the FinCEN Database contained incorrect labeling, missing
information, and cases denoted as closed but actually unassigned.
In fiscal year 2004 through the first quarter of 2005 cases, we
found 13 cases out of a sample of 66 we selected in which the
information recorded in the FinCEN Database did not match the
information in the case files or was misrepresented in the system.

To illustrate, in one case, the Case Assignment section of the
General Query Case Report designated a case as a contractor case,
whereas the case file listed the case as one being performed by
FinCEN analysts. In another case, the“end date”field was found
to be blank, indicating the case was still open. However, the
backup documentation in the case file included an e-mail that
explained that this case was closed in the FinCEN Database on
February 10, 2005. Moreover, case file documentation showed it
actually should have been closed on July 6, 2004.

Other examples include the following:

    Two cases showeda“C”i     nthe“cl
                                     osed”f
                                          iel
                                            dwhen they
     were both actually unassigned.
    A classified case was erroneously tagged as“N”ornor
                                                       mal
     under the “sensi ti
                       vit
                         y”field.
    A case was designated as proactive but was reactive.
    A case failed to include start and end dates and showed as
     not being networked when file documentation showed that it
     had.

Data can be also be misrepresented, and case searches affected,
because FinCEN only allows cases to be labeled with and retrieved

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 25
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      by one type of violation, even though they may involve more than
                      one type. For example, if a case involves both money laundering
                      and narcotics and is labeled as a money laundering case, it will not
                      show up under a search for narcotics cases.

                      Another obstacle to obtaining accurate and reliable information
                      from the FinCEN Database is that some case information is in
                      hardcopy files and other information is stored electronically, which
                      makes it is difficult and time-consuming for FinCEN to retrieve case
                      records. Because records for individual cases are not located in a
                      single, centralized file, it is also cumbersome for FinCEN to
                      re-create case files, which increases the risk of omitting case
                      documentation from a file.

                      System Controls Are Inadequate to Prevent Unauthorized Deletion
                      of Cases

                      FinCEN is responsible for ensuring that BSA and other data are
                      adequately protected in the FinCEN Database. The Office of
                      Management and Budget states that internal controls should be
                      designed to provide reasonable assurance regarding prevention or
                      prompt detection of unauthorized acquisition, use, or disposition of
                      assets.18 Moreover, the Government Accountability Office, in
                      providing guidance regarding system software controls, states that
                      access to resources and records should be limited to authorized
                      individuals, accountability for their custody and use should be
                      assigned and maintained, and periodic comparison of resources
                      with the recorded accountability should be made to help reduce the
                      risk of errors, fraud, misuse, or unauthorized alteration.19

                      In reviewing the FinCEN Database, we found unexplained missing
                      and deleted case numbers that raised questions about whether
                      anyone was inappropriately deleting files. Deletions could have
                      occurred because FinCEN did not have controls to prevent FinCEN
                      personnel from making unauthorized deletions of data in the
                      FinCEN Database. FinCEN did not have policies and procedures for
                      analysts to follow when they wanted to delete case numbers from


18
   OMB Circular No. A-123, Management's Responsibility for Internal Control (Effective beginning with
Fiscal Year 2006) (Revised 12/21/2004)
19
   GAO/AIMD-0021.3.1, Internal Control: Standards for Internal Control in the Federal Government,
November 1999

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                        Page 26
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
the system. Further, when deletions were made, the system did
not provide for an audit trail to trace who was responsible.

Questions about deleted case numbers came to light with our
review of fiscal year 2004 cases entered into the FinCEN
Database. We compared the first case number to the last case
number for 2004 and calculated a total of 6,493 case numbers.
The FinCEN file provided to us showed a 2004 total of 6,270
cases. The result was a difference of 223 cases. When we asked
for a listing of the fiscal year 2004 cases deleted from the FinCEN
Database, we were given a listing of 128 deleted case numbers.
This left 95 unaccounted for case numbers.

A FinCEN Senior Intelligence Research Specialist provided possible
explanations for the deleted cases. One explanation was that the
case numbers were deleted because an analyst may have queried
the system and created a case number in error. Also, if an analyst
working on a case hit the “update”key instead of the “close”key,
this would create a duplicate case in the Database. Another
explanation is that an employee may have opened a second case
number for an already established case and entered information in
the wrong case. This would create two cases in the system when
there should be only one, and the analyst would need to request
that one of the duplicate case numbers be deleted. However,
because FinCEN was unable to account for all case numbers, and
analysts were not required to provide justification for requesting
the deletion of a case number, the potential exists for the FinCEN
Database to have been subject to unauthorized deletions. The
potential also exists for analysts to have queried subjects for
personal reasons and then deleted the case number without any
justification.

Moreover, the system itself can also delete case numbers.
FinCEN’  sSuper visoryInf ormationTechnol   ogySpeciali
                                                      stexpl ained
that if two users log onto the FinCEN Database at the same time,
the system may initially assign identical case numbers to both
users. When that occurs, the system deletes the number from both
users and assign two new case numbers. There is no lasting
evidence of the original case number. Furthermore, a system error
can sometimes occur in which an assigned case number is lost in
transit between the system and the user. Those numbers do not
appear anywhere in the system. Therefore, according to the

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 27
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Supervisory Information Technology Specialist, some numbers in
the FinCEN Database will never be used for a case. This creates a
gap in the list of case numbers.

To compound our concern about deleted case numbers, we noted
instances of multiple unaccounted for case numbers occurring in
sequential order. For example, case numbers missing from the
master file of all cases entered in fiscal year 2004 included the
following: 89006, 89007, 89008, 89009, and 89010. None of the
five cases numbers between 89006 and 89010 appear on the list
of deleted FinCEN Database cases provided to us by FinCEN.
FinCEN did not have an explanation for these missing numbers.

We reviewed FinCEN’    spr ocessf ordeletingcases.The only users
authorized to delete cases, and to make special edits to the FinCEN
Database were the 16 FinCEN employees desi     gnat ed“Super
User s.
      ”Ten of these individuals were in the Analytics Division and
six were in the Client Liaison and Services Division.

We met with one such individual to discuss the deletion of case
numbers. This Super User provided us with samples of e-mails
requesting the deletion of case numbers from the database. The
e-mails used to support the deletion of case numbers varied in
content. While some e-mails gave great detail as to the reasons
why a case number should be deleted, others gave no explanation.
Before our meeting, this Super User had been reviewing the FinCEN
Database and deleting duplicate cases without written justification
so that the statistics pulled from the system would be more
reflective of the workload. While the Super User’sintentwas
reasonable, we do not believe that deleting case numbers from the
FinCEN Database without valid justification was.

Neither Resources Devoted to Cases nor Timeliness of FinCEN
Products Can be Determined

Accor dingt oFi nCEN’ sSt andardOper atingPr ocedur es,analystsare
instructed to enter the number of hours spent working on a case
and the dates when cases are started and completed into the
FinCEN Database. However, we found that because analysts did
not consistently enter the number of hours spent working on
cases, FinCEN was unable to use these statistics from the FinCEN
Database to measure the resources used to complete its products

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has             Page 28
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
or the timeliness of FinCEN products. A FinCEN Senior Intelligence
Research Analyst explained that data on resources used to
complete cases cannot be relied upon from the FinCEN Database
because of incomplete and inconsistent data input.

To determine the time and resources it took to complete a case,
FinCEN must review case data and make manual calculations using
those data. Even if the start and completion dates were entered by
the analysts, the FinCEN Database cannot calculate the number of
days between the dates. The system also cannot calculate the
hours worked on a case. In addition, data must be downloaded to a
program, such as Microsoft Excel, for reporting purposes.

FinCEN Database Is Used for Performance Reporting

FinCEN uses the FinCEN Database for external performance
reporting purposes. For example, information in the FinCEN Annual
Report for Fiscal Year 2004, and data used forFi nCEN’ s
performance measures cited in the Department of the Treasury’ s
Fiscal Year 2004 PAR were derived from this system.

In its fiscal year 2004 annual report, FinCEN reported major
accomplishments such as supporting more than 2900 investigative
efforts through research and analysis of BSA and other data and
researching more than 19,300 subjects being investigated by law
enforcement. In Tr   easury’sfiscalyear2004PAR, FinCEN used
case data to measure the number of subjects in completed
investigative analytical reports (19,158 in fiscal year 2004 and
31,000 proposed for fiscal year 2005), and the number of strategic
analytic products (56 in fiscal year 2004 and 90 proposed for fiscal
year 2005).

FinCEN cannot verify the accuracy of the information provided in
these reports. As we discussed earlier, running identical data
requests through the FinCEN Database at different times can yield
different outcomes.

In summary, we noted several weaknesses in the FinCEN Database
that made it difficult for FinCEN to produce accurate summary
information. The system would at times default to identifying a
case as being closed, even if the case was open, if the analyst did
not change the code manually. The database format also made it

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has             Page 29
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
difficult to summarize data and required a download of data to
other programs, such as Microsoft Excel, to allow FinCEN to
summarize results.

In addition, FinCEN managers did not review cases to ensure that
the analysts were following their standard operating procedures. As
also reported above, we found that analysts sometimes left data
fields blank or that there were inconsistencies in how they filled
out the fields.

Future System Is Expected to Improve Internal Data Management

FinCEN awarded a contract to EDS, a global information technology
services company, to design, develop, and implement a new
information storage and delivery system called BSA Direct and to
provide Web-hosting and support services for the new system.
FinCEN believes BSA Direct, which FinCEN expects to be
operational in January 2006, will enhance how data collected
under the BSA are stored, accessed, and utilized. FinCEN indicated
to us that the bureau will control the data and data query tools,
especially text mining, once BSA Direct is up and running. FinCEN
plans to upgrade its current case management system by linking it
with BSA Direct.

Conclusion

FinCEN’  scasemanagementsyst      em, the FinCEN Database, is of
limited value in its present form. The data it produces are unreliable
and inaccurate. To better manage analytical cases and products,
FinCEN needs a system that can provide management with useful
and reliable information. FinCEN also needs to ensure that analysts
accurately, completely, and consistently record data to a
management information system. FinCEN will have to determine
whether enhancements can be made to the current system or a
new system is needed.

Recommendations

We recommend that the Director of FinCEN do the following:

1. Enhance the current FinCEN Database system or acquire a new
   system. An improved system should provide for complete and

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 30
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
   accurate information on the case type, status, and resources
   and time expended in performing the analysis. This system
   should also have the proper security controls to maintain
   integrity of the data.

Management Response The Director of FinCEN stated that the
bureau previously concluded that enhancement to the FinCEN
Database is not a viable option, and that replacement of the
system is required. The system was designed in 1990 as a
repository for case information and as a tool for analysts to track
case work; however, it has not evolved as a case management tool
alongwi  thFi nCEN’   s work. Funding for a new system was not
approved in either the fiscal year 2006 or 2007 budgets. FinCEN
will again request funding to acquire a new system to track and
report on all of its analytic efforts in the fiscal year 2008
departmental budget request, and will complete this in June 2006.
If funding is approved, FinCEN expects to implement the new
system by 2010.

OIG Comment We believe Fi     nCEN’spl annedcor  r
                                                 ectiveact i
                                                           ont o
request funding to acquire a new case system meets the intent of
our recommendation. However, in light of the years it will take to
develop and implement a new system, we believe FinCEN should
take other interim measures that will allow the bureau to have
more valid and reliable case data available to management.
Additionally, FinCEN should not consider the recommendation to
have a final action until a new case system is implemented.

2. Ensure that analysts follow standard operating procedures when
   recording case data.

Management Response According to the Director, FinCEN will
update its Standard Operating Procedures that are currently in
place and include a methodology for periodically extracting a
sample of cases to review for compliance with these procedures.
The target date for updating the Standard Operating Procedures is
October 2006.

OIG Comment We believe Fi   nCEN’ splannedcor  rectiveactiont o
revise its Standard Operating Procedures and require sampling of
cases to determine compliance with these procedures meets the
intent of our recommendation.

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has             Page 31
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Finding 3   Improved Internal Controls Are Needed to Protect BSA
            and Other Data

            FinCEN is responsible for ensuring that BSA and other data are
            adequately protected. However, we found that certain internal
            controls over data security were weak. While we could not test for
            inappropriate use of FinCEN systems, no incidents came to our
            attention during the audit. Specifically, we found the following:

                In July 2005, 28 of FinCEN’  srequired fiscal year 2005 on-
                 site inspections had not yet been scheduled.
                FinCEN does not have a policy to address inappropriate
                 browsing nor a methodology to monitor for this activity.
                After FinCEN increased the security level needed for contract
                 employees, those who did not have the appropriate
                 clearances were allowed to continue to access sensitive but
                 unclassified BSA and law enforcement data.

            Gateway InspectionsNotCompl
                                      etedi
                                          nAccor
                                               dancewi
                                                     thFi
                                                        nCEN’
                                                            s
            Policy

            As a periodic check on usage, FinCEN employees and Law
            Enforcement Liaison Specialists perform on-site inspections in
            accordancewi   thFinCEN’ sGateway Inspection Policy and
            Procedure. Inspections at Gateway user sites are performed
            primarily to determine whether the system is being used to query
            BSA data in a secure environment.

            According to FinCEN policy, on-site inspections are to be
            performed at each user site every 2 years. When FinCEN inspectors
            are on-site, they verify that the user has the latest version of
            FinCEN’ sGat   ewaySecur   i
                                       tyPl anand review compliance in such
            areas as security controls over system passwords, physical
            security of the computers, and background investigation
            procedures for employees. Fi   nCEN’ spol i
                                                      cyal sor equi r
                                                                    esi ts
            inspectors to review (1) system queries for which there are no user
            or requestor case numbers, (2) compliance with FinCEN policy to
            retain case files for 6 years, and (3) compliance with FinCEN policy
            that requires BSA data not be shared with unauthorized users.


            TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has             Page 32
            Taken Steps to Better Analyze Bank Secrecy Act Data But
            Challenges Remain (OIG-06-030)
At the time of our review, we found that FinCEN has not been
conducting all required on-site inspections. We reviewed data for
66 state agencies that FinCEN officials told us represent the
bur eau’ shighestinspection priority and found that the bureau was
falling behind on inspections. For example, we found 28 agencies
due to be inspected in fiscal year 2005 had not been scheduled as
of July 2005. This included 7 agencies for which there was no
record of a prior inspection being conducted, dating back to fiscal
year 2002. In January 2006, following our exit conference, FinCEN
provided us with data that showed the bureau had completed the
majority of these inspections. Data showed that 27 agencies had
been inspected following completion of our audit work. Twenty-
three were completed in fiscal year 2005 and 4 in fiscal year 2006.
We did not verify the source documentation for this data.

At the time of our audit, FinCEN officials said that the bureau did
not have adequate resources to perform on-site inspections.
FinCEN planned to form a dedicated inspection team. At the time,
the inspectors were also the Gateway trainers, and outreach
representatives. FinCEN planned to develop and transition the
inspection team by fiscal year 2007.

FinCEN Does Not Have a Policy to Address Browsing

FinCEN does not have a policy to address inappropriate browsing
by its analysts of the FinCEN Database and the financial, law
enforcement, and commercial databases. The Internal Revenue
Service (IRS) identified browsing as a potential concern when it
found that certain employees were obtaining electronic access to
taxpayer data for unauthorized purposes. IRS established controls
to prevent browsing, which included an information system log to
monitor and detect this inappropriate activity. IRS also established
a penalty process to discipline employees who engaged in
browsing.

Ourconcer  ni nthisar  eaisbasedonFi    nCEN’ slackofapol   icyt o
address the possibility of inappropriate browsing by its analysts.
The FinCEN Database contains sensitive financial and law
enforcement data. We believe that these data need as much
protection as taxpayer data. Although we did not identify any
inappropriate use, we believe that internal users represent an

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has               Page 33
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                      inherent risk and that to prevent browsing a policy would be
                      beneficial.

                      Establishing a policy of protecting against analyst browsing is only
                      a first step in the process. FinCEN also needs to establish a
                      system, similar to what IRS established, to monitor system activity
                      and detect any inappropriate use. We recognize that distinguishing
                      between browsing and legitimate work activity will not always be
                      easy. However, establishment and use of a monitoring and
                      detection process can better provide assurance that employee
                      queries are related to a specific analytical case or purpose. In this
                      regar d,Fi nCEN’  smoni tori
                                                 nganddet   ect ion system will need to be
                      able to review internal queries to ensure they either relate to
                      proactive research or an established case.

                      Contractor Employees WhoDi  dNotMeett  heCont ract
                                                                       ’sUpgraded
                      Security Requirements Were Allowed To Access BSA and Law
                      Enforcement Data

                      Over the years, FinCEN has employed contractors to help its own
                      analysts with data queries and retrieval. These contractors had to
                      meet certain security clearance requirements. During 2003 and
                      2004, a number of contractor employees who did not meet the
                      upgraded security requirements were allowed to access sensitive
                      though unclassified BSA and law enforcement data.

                      This situation arose when FinCEN elevated security level
                      requirements. In April 2003, FinCEN increased the security level
                      requirement for contractor employees who access BSA and law
                      enforcement data to a favorably adjudicated background
                      investigation and Secret clearance. Previously, under Public Trust
                      Designations, a lesser National Agency Check with Local Record
                      Check clearance was acceptable.20 At the time of the security
                      upgrade, 21 of the 63 contractor personnel did not have a Secret
                      clearance. Over the upcoming year, 11 of the employees continued
                      working without increasing their security levels.



20
  PublicTr ustDes ignationsar  epos  iti
                                       onsi nwhi  cht  hei ndi
                                                             vidual’sact i
                                                                         onsorinactionscoul ddi  mi ni
                                                                                                     sh
public confidence in the integrity, efficiency, or effectiveness of assigned Government activities,
whether or not actual damage occurs. Individuals are entrusted with control over information which the
Government has legal or contractual obligations not to divulge.

                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                         Page 34
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
In July 2004, in an effort to better protect BSA and law
enforcement databases, FinCEN again increased security clearance
requirements, this time to Top Secret. From July to October 2004,
FinCEN’ srecor dsshowedthat only 8 of the 63 contractor
employees had been upgraded to Top Secret, though access to the
data by contractor employees without upgrades was not denied. In
October 2004, FinCEN released its on-board contractor workers
because they failed to meet the increased security requirements.

Recommendations

We recommend that the Director of FinCEN do the following:

1. Continue to monitor for the timely scheduling and completion of
   on-si
       teinspectionsi naccor  dancewi  ththebur  eau’spol
                                                        icy.

Management Response The Director of FinCEN stated the bureau
currently maintains a database of organizations requiring on-site
inspections. The last inspection date and the next inspection date
are calculatedi nthedat  abasei naccor dancewi  thFi nCEN’ srevi sed
policy to conduct on-site inspections every 3 years. He said a
report with upcoming inspections is reviewed each month to
ensure the inspections are scheduled and completed within the
required time frames.

OIG Comment We believe management has taken corrective action
that satisfies the intent of our recommendation.

2. Establish a policy to address inappropriate browsing of the
   FinCEN Database and the financial, law enforcement, and
   commercial databases, and establish and implement a
   methodology to monitor system activity.

Management Response The Director of FinCEN stated he strongly
supports continuous improvement of internal controls. According to
the Director, FinCEN will establish policy that prohibits browsing of
all databases. FinCEN will also develop a methodology for
monitoring system activity of the FinCEN Database and the
financial databases containing BSA data. This is targeted for
completion in September 2006. This methodology will complement
the current warning displayed by all users reminding them that the
system is for authorized use only. The Director said the law

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 35
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
enforcement database providers conduct their own audit
investigation and call upon FinCEN to explain perceived anomalies,
and to date FinCEN is unaware of questionable findings. Regarding
the commercial databases, FinCEN blocks compilation of audit trails
by the vendors to ensure that the sensitive, grand jury, and
classified investigations supported by FinCEN are not compromised.

OIG Comment We believe Fi     nCEN’spl annedcor   recti
                                                      veact i
                                                            ont o
establish a policy to prohibit browsing of all databases and develop
methodologies to monitor usage of its systems meets the intent of
our recommendation.

3. Conduct a risk assessment of contractor employees’use of
   FinCEN systems from July to October 2004 to ensure
   empl oyees’usei nvolvedonlyappr  opriat
                                         eresearch or support
   for case work.

Management Response The Director of FinCEN stated that the
bureau wi  llconductar   i
                         skassessmentofcont    ractorempl oyees’
use of the FinCEN Database from July to October 2004 with a
target completion date of July 2006. He said that the FinCEN
Database is the only FinCEN owned system that contractors used
during the timeframe in question. According to the Director, the
Database application does not contain classified information and
the contractors had at a minimum received a public trust
certification that included a national agency check for name and
fingerprint records.

OIG Comment We believe Fi nCEN’ spl annedcor  r
                                              ecti
                                                 veactionto
conduct a r
          iskassessmentofcont   ractempl  oyees’useoft he
FinCEN Database meets the intent of our recommendation.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 36
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                              ******
We would like to extend our appreciation to FinCEN for its
cooperation and courtesies extended to our audit staff during the
audit. If you have any questions, please contact me at (617) 223-
8640. Major contributors are listed in appendix 5.



/s/
Donald P. Benson
Director




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has            Page 37
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 1
Objectives, Scope, and Methodology




The USA PATRIOT Act of 2001 elevated FinCEN to bureau status
and required FinCEN to furnish research, analytical, and
informational services to financial institutions and appropriate law
enforcement authorities to fight terrorism, organized crime, and
money laundering. We conducted our audit to determine if FinCEN
complied with these USA PATRIOT Act provisions, focusing on
FinCEN’  sef f
             ortstopr  ovideanal yt i
                                    cal services to law enforcement.
Mor especi  fi
             call
                y,weeval   uat edFi nCEN’  sef fort
                                                  st oper f
                                                          orm
complex (i.e., proactive) analyses of BSA data that would provide
law enforcement with new information regarding individuals,
entities, and organizations engaging in terrorist acts or money
laundering. Insodoi  ng,wei   dentifiedi ssueswi  thFinCEN’ scase
management information system, known as the FinCEN Database,
that we believe need to be addressed.

In this audit we also revi
                         ewedFi  nCEN’ si nternalcontrol
                                                       st  osecur e
data and prevent unauthorized disclosures of BSA data and other
financial crimes information. During our review we identified data
security concerns regarding the FinCEN Database and Gateway
system.

We reviewed (1) applicable laws and regulations related to
FinCEN’ sdut  i
              esandr   esponsibil
                                itiesidentifi
                                            edint heUSA PATRIOT
Act of 2001, Pub. L. No. 107-56, Section 361; (2) Fi  nCEN’  s
strategic plan and its annual report and PAR; (3) Congressional
testimony; (4) FinCEN standard operating procedures; and
(5) FinCEN’ sst udi
                  esr  elat
                          edt  oits case processing and data
analysis functions.

We identif i
           edFi nCEN’ sdi visi
                             ons,st aff
                                      ,andsyst  emscur  rentl
                                                            y
involved in analyzing data and sharing BSA data and other financial
crime information. We conducted interviews with FinCEN officials
at its Headquarters in Vienna, Va., and with the Regulatory Policy
and Program Division in Washington, D.C. Fieldwork was
performed in Vienna, Va., and Washington, D.C.

We selected a random sample of FinCEN Database cases from an
electronic data file for fiscal years 2003, 2004, and the first
quarter of 2005, and reviewed corresponding documentation to


TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 38
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 1
Objectives, Scope, and Methodology




assess the status, completeness, and timeliness of Fi nCEN’ s
research, analytical, and informational services. We examined the
analyticalnatureofFi   nCEN’ sproduct sand the methods, tools, and
techniques FinCEN used to identify trends and patterns in BSA data
and other financial crime information reported to law enforcement
agencies. The sample cases were representative of each type of
case found in the FinCEN Database.

We conducted our audit from September 2004 to November 2005
in accordance with generally accepted government auditing
standards.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has            Page 39
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                                        Appendix 2
                                        FinCEN Analytics Division




         Current Organization of FinCEN Analytics
                         Division
                                                                               Each of the established offices
                                                                               provides research for the
                Analytics Division                                             following types of cases:

                                         Office of Law                                     Hotline Cases
                                     Enforcement Support

                                     Office of Regulatory
                                            Support                                        Strategic (STRT)
                                                                                           Reactive (RCT)
                                                                                           Proactive (PRO)
                                       Office of Global
                                            Support
                                                                                           International
                                                                                           Referral (INTR)
                                     Office of Intelligence



              The Analytics Division is organized by the customers it supports .




        Organization of FinCEN Analytics Division
                    Before July 2004
         TACTICAL                                       ANALYTICAL                                      INTELLIGENCE
         SUPPORT                                        SUPPORT
    Office of Investigative
        Support (OIV)                                               Office of Strategic                 Office of Intelligence
                                                                     Analysis (OSA)                             (OOI)
                                             •
                                             Patriot Act 314(A)
                        Operations           •
                                             Contractor (CNTR)
                          (OPS)              •
                                             High Intensity Money
                                             Laundering and                         Geographic Threat
                                             Related Financial
                                                                                    Assessment Branch
                                             Crime Area (HIFCA)
                        Proactive            (FCS)                                       (GAB)
                          (PTS)              •
                                             Support and Rep

                                             •
                                             Data Enhancement                         Non-Traditional
                                             Team (DET)                               Methods (NTM)
                         Analysis            •
                                             Case Development
                                             Team (CDT)
                          (ANL)
                                                                                      Strategic Data
                                             •
                                             Technical Support
                                             Team (TST)                               Analysis Branch
                                             •
                                             Sensitive Case Team                          (SDA)
                                             (SCT)
                                             •
                                             Analytic
                                             Development Team
                                             (ADT)


                 These offices were organized by the types of products produced.


Source: OIG Presentation of FinCEN data.


                                         TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                                        Page 40
                                         Taken Steps to Better Analyze Bank Secrecy Act Data But
                                         Challenges Remain (OIG-06-030)
Appendix 2
FinCEN Analytics Division




FinCEN Analytics Division


Office of Law Enforcement Support

The Office of Law Enforcement Support provides direct case
support to law enforcement agencies. It provides case reports each
year involving thousands of individual subjects to federal, state,
local, and international agencies. Through the use of analytical
tools and information extracted from numerous data sources,
intelligence research analysts seek to add additional information to
what is already known by investigators.


Office of Regulatory Support

The Office of Regulatory Support (with analysts from the former
Office of Investigative Support and Office of Strategic Analysis),
work on identifying trends and patterns that emerge as a result of
SARs. Its major project is the SAR Activity Review--Trends, Tips &
Issues, a report published under the auspices of the Bank Secrecy
Advisory Group. It is the product of collaboration among the
financial institutions, law enforcement officials, and regulatory
agencies to provide information about the preparation, use, and
value of SARs filed by financial institutions. Topics presented
include analyses of emerging and traditional money laundering
schemes and possible terrorist financing methods.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 41
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
                       Appendix 2
                       FinCEN Analytics Division




                       Office of Global Support

                       The Office of Global Support acts as the intermediary between law
                       enforcement agencies, including ICE, the FBI, the Drug
                       Enforcement Administration, and the Egmont group which is an
                       international network of Financial Intelligence Units (FIU) around
                       the world.21 This office processes requests for information from
                       FIUs, congressional officials, and law enforcement.




21
   An FIU is a national center established in a country to collect data from the financial industry on
suspicious or unusual financial activity, analyze the data, and make those data available to appropriate
national authorities and other FIUs for use in combating money laundering, terrorist financing, and other
financial crime. FinCEN is the FIU for the United States.


                       TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                           Page 42
                       Taken Steps to Better Analyze Bank Secrecy Act Data But
                       Challenges Remain (OIG-06-030)
Appendix 3
Descriptions of Several Software Packages
Used by FinCEN Analysts




SQS

The Suspicious Activity Report Query System (SQS) is a search
engine that was developed by FinCEN analysts and technicians. It
allows analysts to extract data in SARs, and perform searches for
specific information contained in the SARS to identify potential
money laundering or terrorist financing schemes. FinCEN
downloads SARs into SQS on a daily basis from IRS-DCC.

VisuaLinks

VisuaLinks is a commercial analytical tool developed by Visual
Analytics, Inc. FinCEN analysts use this software to discover
patterns, trends, and associations between persons and entities
named in BSA reports filed with IRS-DCC. For instance, it allows
users to identify the number of SARs with missing narratives. It
also allows the user to filter the data by adding a condition which
will generate useful information for potential investigation. In
addition, it has a name matcher capability that searches for name
spelling variations. The results of user queries are represented
graphically using symbols to display links among the data. Figure 1
below illustrates a VisuaLinks diagram.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has             Page 43
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
      Appendix 3
      Descriptions of Several Software Packages
      Used by FinCEN Analysts




Figure 1. Example of a VisuaLinks Diagram




      Source: VisuaLinks News, December 2004




      TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 44
      Taken Steps to Better Analyze Bank Secrecy Act Data But
      Challenges Remain (OIG-06-030)
Appendix 3
Descriptions of Several Software Packages
Used by FinCEN Analysts




ASI
  S,MapI
       nfo,andAnal
                 yst
                   ’sNot
                       ebook

Analytical System for Investigative Support (ASIS) is a Microsoft
Access database developed by FinCEN to collect money laundering
and other financial crime data from financial, law enforcement, and
commercial databases. It is used to assist federal agencies in their
investigations by establishing one source for analyzing cases and
performing searches.

MapInfo, developed by MapInfo Corp., is a mapping application
that enables visualization of relationships between money
laundering, other financial crime activities under investigation, and
geographic locations. This information is used to assist law
enforcement in their ongoing investigations.

Analyst's Notebook, developed by i2 Ltd.., is an analytical tool
used by FinCEN analysts to perform timeline, transaction, and link
analyses with information obtained from financial, law
enforcement, and commercial databases. Timeline analysis
graphically represents events in chronological order. Transaction
analysis links data, such as bank transfers and telephones calls, in
chronological order. The link analysis feature is able to diagram
connections between people, accounts, organizations and any
other elements in an investigation.




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has                Page 45
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 46
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 47
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 48
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 49
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 50
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 5
Major Contributors to This Report




Sharon Torosian, Audit Manager
Maryann Costello, Auditor-In-Charge
Audrey Philbrick, Auditor
Valerie Freeman, Referencer




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has          Page 51
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
Appendix 6
Report Distribution




Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Assistant Secretary, Terrorist Financing
Assistant Secretary, Intelligence and Analysis
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Controls

Financial Crimes Enforcement Network

Director
Assistant Director, Financial Management

Office of Management and Budget

OIG Budget Examiner




TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has              Page 52
Taken Steps to Better Analyze Bank Secrecy Act Data But
Challenges Remain (OIG-06-030)
